Case: 20-1944

Document: 11

Filed: 12/01/2020

Pages: 1

JSnitefr jStales Court of Appeals
For the Seventh Circuit
Chicago, Illinois 60604
Submitted November 23, 2020
Decided December 1, 2020
Before
FRANK H. EASTERBROOK, Circuit Judge
MICHAEL S. KANNE, Circuit Judge

No. 20-1944
JAMES W. KNIPFER,
Peti tioner-Appel lan t,

v.
REED A. RICHARDSON,
Respondent-Appellee.

Appeal from the United States District
Court for the Western District of
Wisconsin.
No. 3:20-cv-00176-bbc
Barbara B. Crabb,

Judge.

ORDER
James Knipfer has filed a notice of appeal from the denial of his 28 U.S.C. § 2254
petition, which we construe as a request for a certificate of appealability. We have
reviewed the final order of the district court and the record on appeal. We find no
substantial showing of the denial of a constitutional right. See 28 U.S.C. § 2253(c)(2).
Accordingly, we DENY the request for a certificate of appealability.

Case: 3:20-cv-00176-bbc Document#: 4 Filed: 05/19/20 Page 1 of 3

IN THE UNITED STATES DISTRICT COURT
FOR THE WESTERN DISTRICT OF WISCONSIN
JAMES KNIPFER,
ORDER
Petitioner,
20-cv-176-bbc
v.

STATE OF WISCONSIN
ATTORNEY GENERAL,
Respondent.
Petitioner James Knipfer, appearing pro se, has filed a petition for a writ of habeas
corpus under 28 U.S.C. § 2254. Petitioner generally challenges an order entered by the
Wisconsin Court of Appeals in case no. 2018AP1649, affirming the 2017 and 2018
denials of his motion to vacate his 1993 conviction on two counts of first-degree
intentional homicide and one count of armed burglary, for which he was sentenced to
two consecutive terms of life imprisonment, plus thirty years.

In an order entered on

April 28, 2020, I found that petitioner’s federal habeas claim was barred by the doctrine
of procedural default because the Wisconsin Court of Appeals relied on an “adequate and
independent” state procedural rule to dismiss his federal claims. Dkt. #2. Specifically,
the court of appeals declined to address the merits of petitioner’s claims of prosecutorial
and judicial misconduct because he did not develop any coherent argument supported by
legal authority or facts. Dkt. #1-2 at 11, State v. Knipfer, no. 2018AP1649 (Ct. App.
May 30, 2019). However, I gave petitioner a short opportunity to overcome his default
by showing:

(1) what cause he may have had for not developing his claims and what
1

Case: 3:20-cv-00176-bbc Document #: 4 Filed: 05/19/20 Page 2 of 3

prejudice he will suffer if this court fails to consider his claims; or (2) whether a failure to
review his claims will constitute a fundamental miscarriage of justice because he is
actually innocent of the charges resulting in his 1993 conviction.
In response to the show cause order, petitioner points to errors allegedly made by
“the mentally ill judge” who presided over his trial and insists that this court address
those errors. Dkt. #3. However, petitioner has neither explained why he did not develop
his claims in the state court of appeals nor identified any evidence showing that he is
actually innocent.

Because petitioner has not provided any reason for this court to

overlook his procedural default, I am dismissing the petition.
Under Rule 11 of the Rules Governing Section 2254 Cases, the court must issue
or deny a certificate of appealability when entering a final order adverse to a petitioner.
The question is whether “reasonable jurists could debate whether (or, for that matter,
agree that) the petition should have been resolved in a different manner or that the issues
presented were adequate to deserve encouragement to proceed further.”

Miller-El v.

Cockrell, 537 U.S. 322, 336 (2003) (internal quotations and citations omitted). For the
reasons stated above and in my previous order, I find that reasonable jurists would not
debate whether this court was correct in its procedural ruling. Slack v. McDaniel, 529
U.S. 473, 484 (2000) (“When the district court denies a habeas petition on procedural
grounds without reaching the prisoner’s underlying constitutional claim, a COA should
issue when the prisoner shows, at least, that jurists of reason would find it debatable
whether the petition states a valid claim of the denial of a constitutional right and that
2

Case: 3:20-cv-00176-bbc Document #: 4 Filed: 05/19/20 Page 3 of 3

jurists of reason would find it debatable whether the district court was correct in it's
procedural ruling.”). Therefore, no certificate will issue.

ORDER
IT IS ORDERED that petitioner James Knipfer’s petition for a writ of habeas
corpus under 28 U.S.C. § 2254 is DISMISSED. No certificate of appealability will issue.
Entered this 19th day of May, 2020.
BY THE COURT:
/s/
BARBARA B. CRABB
District Judge

3

Additional material
from this filing is
available in the
Clerk's Office.

